                                                                   Issue Date
                                                                            September 24, 2007
                                                                   Audit Report Number
                                                                            2007-CH-1014




TO:         Steven E. Meiss, Director of Public Housing Hub, 5APH


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Peoria Housing Authority, Peoria, Illinois, Did Not Effectively Administer
           Its Section 8 Housing Choice Voucher Program

                                     HIGHLIGHTS

 What We Audited and Why

              We audited the Peoria Housing Authority’s (Authority) Section 8 Housing Choice
              Voucher program (program). The audit was part of the activities in our fiscal year
              2007 annual audit plan. We selected the Authority based upon our analysis of
              risk factors relating to the housing agencies in Region V’s jurisdiction. Our
              objective was to determine whether the Authority administered its program in
              accordance with the U.S. Department of Housing and Urban Development’s
              (HUD) requirements. This is the first of two audit reports on the Authority’s
              program.

 What We Found

              The Authority’s program administration regarding housing unit conditions and
              timeliness of annual housing unit inspections was inadequate. Of the 59 housing
              units statistically selected for inspection, 58 did not meet HUD’s housing quality
              standards, and 28 had 88 exigent health and safety violations that existed at the
              time of the Authority’s previous inspections. The 28 units had between 1 and 18
              preexisting exigent health and safety violations per unit. Based on our statistical
              sample, we estimate that over the next year, HUD will pay more than $1 million
              in housing assistance for units with housing quality standards violations.
           The Authority failed to ensure that its housing unit inspections were conducted in
           a timely manner. Of the 3,062 unit inspections conducted by the Authority from
           January 1, 2005, through January 31, 2007, 823 (26.8 percent) inspections were
           not conducted within the required one year of the previous inspections. The
           number of days late ranged from 1 to 488, and 402 of the late inspections were
           more than 30 days late.

What We Recommend

           We recommend that the Director of HUD’s Chicago Office of Public Housing
           require the Authority to reimburse its program from nonfederal funds for the
           improper use of nearly $107,000 in program funds and implement adequate
           procedures and controls to address the finding cited in this audit report. These
           procedures and controls should help ensure that more than $1 million in program
           funds is spent on housing units that meet HUD’s requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our inspection review results and supporting schedules to the
           Director of HUD’s Chicago Office of Public Housing and the Authority’s
           executive director during the audit. We also provided our discussion draft audit
           report to the Authority’s executive director, its board chairman, and HUD’s staff
           during the audit. We held an exit conference with the Authority’s executive
           director on September 5, 2007.

           We asked the Authority’s executive director to provide comments on our
           discussion draft audit report by September 13, 2007. The Authority’s executive
           director provided written comments dated, September 11, 2007. The executive
           director generally agreed with our finding and recommendations. The complete
           text of the written comments, along with our evaluation of that response, can be
           found in appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                   4

Results of Audit
      Finding: Controls over Housing Quality Standards Were Inadequate     5

Scope and Methodology                                                     13

Internal Controls                                                         15

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use      17
   B. Auditee Comments and OIG’s Evaluation                               18
   C. HUD’s Regulations and the Authority’s Program Administrative Plan   25




                                            3
                      BACKGROUND AND OBJECTIVE

The Peoria Housing Authority (Authority) was established by the State Housing Board of Illinois
in August 1936 under the laws of the State of Illinois to provide decent, safe, and sanitary
housing. The Authority is governed by a five-member board of commissioners (board)
appointed by the mayor to five-year staggered terms. The board’s responsibilities include
overseeing the Authority’s operations, as well as the review and approval of its policies. The
board appoints the Authority’s executive director. The executive director is responsible for
coordinating established policy and carrying out the Authority’s day-to-day operations.

The Authority administers a Section 8 Housing Choice Voucher program (program) funded by
the U.S. Department of Housing and Urban Development (HUD). It provides assistance to low-
and moderate-income individuals seeking decent, safe, and sanitary housing by subsidizing rents
with owners of existing private housing. As of August 21, 2007, the Authority had 1,942 units
under contract with annual housing assistance payments totaling more than $9.8 million in
program funds.

Our objective was to determine whether the Authority administered its program in accordance
with HUD’s requirements. This included determining whether (1) the Authority’s inspections
were sufficient to detect housing quality standards violations and provide decent, safe, and
sanitary housing to its residents; and (2) the Authority complied with HUD’s regulations and its
program administrative plan regarding annual housing unit inspections. This is the first of two
audit reports on the Authority’s program.




                                                4
                                RESULTS OF AUDIT

Finding: Controls over Housing Quality Standards Were Inadequate
The Authority did not adequately enforce HUD’s housing quality standards. Of the 59 program
units statistically selected for inspection, 58 did not meet minimum housing quality standards,
and 28 had material violations that existed before the Authority’s previous inspections. The
violations occurred because the Authority lacked adequate procedures and controls to ensure that
housing units met HUD’s housing quality standards. It also failed to exercise proper supervision
and oversight of its program units to ensure that annual housing quality standards inspections
were performed in a timely manner. As a result, more than $47,000 in program funds was spent
on units that were not decent, safe, and sanitary. We estimate that over the next year, the
Authority will pay more than $1 million in housing assistance for units with housing quality
standards violations.



 HUD’s Housing Quality
 Standards Not Met

              From the 433 program units that passed the Authority’s inspections between
              January and March 2007, we statistically selected 59 units for inspection by using
              the EasySample Statistical Sampling software. The 59 units were inspected to
              determine whether the Authority ensured that its program units met HUD’s
              housing quality standards. Our appraiser inspected the 59 units between May 15
              and June 1, 2007.

              Of the 59 units inspected, 58 (98 percent) had a total of 846 housing quality
              standards violations. In addition, 28 units were considered to be in material
              noncompliance since they had health and safety violations that predated the
              Authority’s previous inspections. The following table categorizes the 846
              housing quality standards violations in the 58 units.




                                               5
                                                   Number of     Number
                      Category of violations       violations    of units
                Security                              135           44
                Window                                75            40
                Stairs/railings/porches               69            34
                Lead-based paint                      65            31
                Electricity                           56            27
                Exterior surfaces                     43            27
                Range/refrigerator                    41            27
                Other hazards                         36            23
                Garbage/debris/refuse disposal        34            24
                Roof/gutters                          34            25
                Walls                                 31            22
                Interior stairs/commons malls         27            16
                Tub/shower                            25            21
                Floors                                23            19
                Toilet/wash basin                     23            18
                Ceiling                               22            15
                Water heater                          21            18
                Heating equipment                     20            18
                Ventilation                           20            18
                Smoke/carbon monoxide detectors       13            7
                Plumbing/sewer/water supply            9            8
                Food storage/preparation               8            6
                Sinks                                  6            6
                Foundation                             4            3
                Chimney                                3            3
                Evidence of infestation                3            3
                              Total                   846

            We provided our inspection results to the Director of HUD’s Chicago Office of
            Public Housing and the Authority’s executive director on July 23, 2007.

Security Violations


            One hundred thirty-five security violations were present in 44 of the Authority’s
            program units inspected. The following items are examples of security violations
            listed in the table: damaged door locks, broken door knobs, and split or damaged
            doors. The following pictures are examples of the security-related violations.




                                               6
  Unit #30: Missing
  window pane on rear
  exterior door. Children
  under the age of six
  reside in this unit.




Unit #39: Broken door
knob on front exterior
door. Children under the
age of six reside in this
unit.




Window Violations

                Seventy-five window violations were present in 40 of the Authority’s program
                units inspected. The following items are examples of window violations listed in
                the table: windows that do not open or stay up properly, cracked or broken panes,
                torn screens, and blocked egress. The following pictures are examples of the
                window-related violations identified.




                                                7
Unit #18: Broken glass
pane on bathroom
window. Children
between the ages of 6
and 18 reside in this unit.




  Unit # 52: Broken glass
  pane on bedroom
  window. Children
  between the ages of 6
  and 18 reside in this unit.




Stair, Railing, and Porch
Violations

                 Sixty-nine stair, railing, and porch violations were present in 34 of the Authority’s
                 program units inspected. The following items are examples of stair, railing, and
                 porch violations listed in the table: loose, broken, or missing handrails or railings;
                 damaged stairs; and wood rot. The following pictures are examples of the stair,
                 railing, and porch-related violations.




                                                   8
Unit #9: Porch railing
loose/broken.
Children under the age
of six reside in this
unit.




Unit #5: Cracked/broken
front stair. Children
between the ages of 6 and
18 reside in this unit.




Annual Inspections Not
Performed in a Timely Manner

               The Authority did not always perform its annual inspections within one year. Of
               the 3,062 units inspected by the Authority from January 1, 2005, through January
               31, 2007, 823 (26.8 percent) of the inspections were not conducted in accordance
               with the annual requirement. Of the 823 late annual inspections, 402 were more
               than 30 days late. Of the 402 inspections that were more than 30 days late, 55
               were more than six months late, nine of those were more than one year overdue.
               The Authority received $52,421 in program administrative fees for the 402 units
               that were more than 30 days past due for housing quality standards inspections.




                                               9
             The Authority’s program director said the reason for the late annual inspections
             was that the Authority’s computer system did not always generate inspection
             notifications. As of July 2007, the Authority was working to determine the cause
             of the system issues.

             If the Authority implements procedures and controls to ensure that program units
             are inspected at least annually, we estimate that HUD will pay more than $25,000
             in administrative fees over the next year for program units inspected to ensure
             compliance with HUD’s housing quality standards. Our methodology for this
             estimate is explained in the Scope and Methodology section of this audit report.
             The procedures and controls should include but not be limited to developing
             reporting procedures to ensure that the Authority’s management can track and
             monitor when annual inspections are due and completed.

Adequate Procedures and
Controls Lacking

             The Authority lacked adequate procedures and controls to ensure that program
             units met HUD’s requirements. It also failed to exercise proper supervision and
             oversight of its program units and housing inspections. When we observed the
             Authority’s inspection process, one of the inspectors did not conduct accurate and
             complete inspections. Specifically, the Authority’s inspector did not inspect items
             such as smoke detectors, locks, and ovens to determine whether they were
             working properly to avoid exposing the household to a potential risk. Therefore,
             the Authority did not determine during its inspections whether program units
             complied with HUD’s housing quality standards.

             In addition, the Authority did not perform its required supervisory quality control
             inspections in accordance with its program administrative plan. According to the
             Authority’s program administrative plan, at least 5 percent of all units under contract
             annually will have a supervisory quality control inspection. For fiscal years 2005
             and 2006, the Authority conducted 32 and 48 quality control inspections,
             respectively. However, as of December 2005 and 2006, there were 1,536 and 1,546
             units under contract; therefore, the Authority should have conducted 77 (5 percent)
             quality control inspections each fiscal year to comply with its administrative plan.
             As a result, the Authority did not verify that its inspectors conducted accurate and
             complete inspections and ensure that there was consistency among inspectors in the
             application of HUD’s housing quality standards. The Authority’s executive director
             stated that the Authority was unable to perform quality control inspections on 5
             percent of its program units based on existing staff levels.

Conclusion

             The Authority’s households were subjected to health and safety-related violations
             and the Authority did not properly use its program funds when it failed to ensure
             that units complied with HUD’s housing quality standards and perform timely

                                               10
          annual inspections of its program units. In accordance with 24 CFR [Code of
          Federal Regulations] 982.152(d), HUD is permitted to reduce or offset any
          program administrative fees paid to a public housing authority if it fails to enforce
          HUD’s housing quality standards. The Authority disbursed $47,295 in program
          housing assistance payments for the 28 units that materially failed to meet HUD’s
          housing quality standards and received $6,729 in program administrative fees. In
          addition, the Authority received $52,421 in program administrative fees for the
          402 units that were more than 30 days past due for housing quality standards
          inspections.

          If the Authority implements adequate procedures and controls over its unit
          inspections to ensure compliance with HUD’s housing quality standards, we
          estimate that more than $1 million in future housing assistance payments will be
          spent for units that are decent, safe, and sanitary over the next year. Our
          methodology for this estimate is explained in the Scope and Methodology section
          of this audit report.

Recommendations

          We recommend that the Director of HUD’s Chicago Office of Public Housing
          require the Authority to

          1A.     Certify, along with the owners of the 58 program units cited in this finding,
                  that the applicable housing quality standards violations were repaired.

          1B.     Reimburse its program $54,024 from nonfederal funds ($47,295 for
                  housing assistance payments and $6,729 in associated administrative fees)
                  for the 28 units that materially failed to meet HUD’s housing quality
                  standards.

          1C.     Implement adequate procedures and controls to ensure that all units meet
                  HUD’s housing quality standards to prevent $1,065,312 in program funds
                  from being spent over the next year on units that are in material
                  noncompliance with the standards.

          1D.     Ensure that all inspectors are properly trained and are familiar with the
                  housing quality standards and local codes and can apply them
                  appropriately.

          1E.     Ensure that it performs its required supervisory quality control inspections
                  in accordance with the Authority’s program administrative plan to verify
                  that its inspectors conduct accurate and complete inspections, and
                  consistently apply HUD’s housing quality standards.

          1F.     Reimburse its program $52,421 from nonfederal funds in associated
                  administrative fees for the 402 units that were more than 30 days late in
                  receiving their annual inspections.

                                            11
1G.   Implement adequate procedures and controls to ensure that program units
      are inspected at least annually in accordance with HUD’s requirements to
      prevent $25,164 in administrative fees from being received over the next
      year.




                              12
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

       •       Applicable laws, regulations, the Authority’s 2000 program administrative plan,
               HUD’s program requirements at 24 CFR [Code of Federal Regulations] Parts 5 and
               982, and HUD’s Housing Choice Voucher Guidebook 7420.10.

       •       The Authority’s accounting records; annual audited financial statements for 2003,
               2004, 2005, and 2006; bank statements; household files; policies and procedures;
               board meeting minutes for January 2005 through January 2007; organizational chart;
               and program annual contributions contract with HUD.

       •       HUD’s files for the Authority.

We also interviewed the Authority’s employees and board chairman, HUD staff, and program
households.

We statistically selected 59 of the Authority’s program units to inspect using EasySample
Statistical Sampling software from the 433 units that passed inspection by the Authority from
January through March 2007. The 59 units were selected to determine whether the Authority’s
program units met HUD’s housing quality standards. Our sampling criteria used a 90 percent
confidence level, 50 percent estimated error rate, and precision of plus or minus 10 percent.

Our sampling results determined that 28 of 59 units (47.5 percent) materially failed to meet
HUD’s housing quality standards. Materially failed units were those units with emergency
health and safety violations that predated the Authority’s previous inspections.

The Authority’s January through March 2007 housing assistance disbursements listing showed
that the average monthly housing assistance payment was $548. Projecting our sampling results
of the 28 units that materially failed to meet HUD’s housing quality standards to the population
indicates that 205 units or 47.46 percent of the population contains the attributes tested (would
materially fail to meet HUD’s housing quality standards). The sampling error is plus or minus
9.94 percent. In other words, we are 90 percent confident that the frequency of occurrence of the
attributes tested lies between 37.52 and 57.38 percent of the population. This equates to an
occurrence of between 162 and 248 units of the 433 units in the population.

   ¾ The lower limit is 37.52 percent times 433 units = 162 units that materially failed to meet
     HUD’s housing quality standards.
   ¾ The point estimate is 47.46 percent times 433 units = 205 units that materially failed to
     meet HUD’s housing quality standards.
   ¾ The upper limit is 57.38 percent times 433 units = 248 units that materially failed to meet
     HUD’s housing quality standards.

Using the lower limit of the estimate of the number of units and the average housing assistance
payment, we estimated that the Authority will annually spend $1,065,312 (162 units times $548


                                                13
average payment times 12) for units that materially fail to meet HUD’s housing quality
standards. In addition, the Authority received average monthly administrative fees of $2,097 for
units which were not inspected annually in accordance with HUD’s requirements. Using the
average monthly administrative fees, we estimate that the Authority will receive $25,164 in
administrative fees ($2,097 times 12) for units that have not been inspected annually to ensure
they meet HUD’s housing quality standards.

These estimates are presented solely to demonstrate the annual amount of program funds and
administrative fees that will be correctly paid over the next year on decent, safe, and sanitary
housing if the Authority implements our recommendation. While these benefits would recur
indefinitely, we were conservative in our approach and only included the initial year in our
estimate.

We performed our on-site audit work between March and July 2007 at the Authority’s offices
located at 100 South Richard Pryor Place, Peoria, Illinois. The audit covered the period January
1, 2005, through January 31, 2007, but was expanded as determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                                14
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               15
Significant Weakness

           Based on our review, we believe the following item is a significant weakness:

           •   The Authority lacked adequate procedures and controls to ensure compliance
               with HUD’s requirements and/or its program administrative plan regarding
               unit inspections (see finding).




                                            16
                                     APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                     Recommendation                         Funds to be put
                         number             Ineligible 1/    to better use 2/
                            1B                   $54,024
                            1C                                  $1,065,312
                            1F                   $52,421
                            IG                                     $25,164
                           Totals              $106,445         $1,090,476


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if the Authority implements our
     recommendations, it will cease to incur program costs for units that are not decent, safe,
     and sanitary and not inspected annually and, instead, will expend those funds in
     accordance with HUD’s requirements. Once the Authority successfully improves its
     controls, this will be a recurring benefit. Our estimate reflects only the initial year of this
     benefit.




                                               17
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         19
Ref to OIG Evaluation   Auditee Comments




                         20
Ref to OIG Evaluation   Auditee Comments




                         21
Ref to OIG Evaluation   Auditee Comments




                         22
Ref to OIG Evaluation   Auditee Comments




                         23
                        OIG’s Evaluation of Auditee Comments

Comment 1   The Authority did not provide any documentation with its written comments to
            support that the violations were not preexisting health and safety violations.
            Therefore, we did not remove them from this audit report.




                                            24
Appendix C

          HUD’S REGULATIONS AND THE AUTHORITY’S
              PROGRAM ADMINISTRATIVE PLAN

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.401 require that all program
housing meet HUD’s housing quality standards performance requirements both at
commencement of assisted occupancy and throughout the tenancy.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.404 require owners of program
units to maintain the units in accordance with HUD’s housing quality standards. If the owner
fails to maintain the dwelling unit in accordance with HUD’s housing quality standards, the
authority must take prompt and vigorous action to enforce the owner’s obligations. The
authority’s remedies for such breach of the housing quality standards include termination,
suspension, or reduction in housing assistance payments and termination of the housing
assistance payments contract. The authority must not make any housing assistance payments for
a dwelling unit that fails to meet the housing quality standards unless the owner corrects the
defect within the period specified by the authority and the authority verifies the correction. If a
defect is life threatening, the owner must correct the defect within 24 hours. For other defects,
the owner must correct them within 30 calendar days.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.405(a) require public housing
authorities to inspect the unit leased to a family before the term of the lease, at least annually
during assisted occupancy, and at other times as needed to determine whether the unit meets
housing quality standards.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.153 state that the public
housing authority must comply with the consolidated annual contributions contract, the
application, HUD regulations and other requirements, and its program administrative plan.

Chapter 10, section G, of the Authority’s program administrative plan states that quality control
inspections will be performed by the director/supervisor on at least 5 percent of the units of each
inspector. The purpose of quality control inspections is to ensure that each inspector is
conducting accurate and complete inspections and that there is consistency among inspectors in
application of the housing quality standards.




                                                25
